<html>
<title> - CONNECTING VETERANS WITH PTSD WITH SERVICE DOGS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 
            CONNECTING VETERANS WITH PTSD WITH SERVICE DOGS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 14, 2016

                               __________

                           Serial No. 114-118

                               __________

Printed for the use of the Committee on Oversight and Government Reform





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         



         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                      
                      
                      
                            ________

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 23-642 PDF              WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                 David Rapallo, Minority Staff Director
     Art Arthur, Staff Director, Subcommittee on National Security
                          Mike Howell, Counsel
                           Willie Marx, Clerk

                                 ------                                

                   Subcommittee on National Security

                    RON DeSANTIS, Florida, Chairman
JOHN L. MICA, Florida                STEPHEN F. LYNCH, Massachusetts, 
JOHN J. DUNCAN, JR., Tennessee           Ranking Member
JODY B. HICE, Georgia                ROBIN KELLY, Illinois
STEVE RUSSELL, Oklahoma, Vice Chair  BRENDA L. LAWRENCE, Michigan
WILL HURD, Texas                     TED LIEU, California


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 14, 2016...................................     1

                               WITNESSES

Mr. Michael Fallon, Chief Veterinary Medical Officer, Office of 
  Research and Development, Department of Veterans Affairs, 
  Accompanied by Patricia Dorn, Director, Rehabilitation Research 
  and Development Service, and Chris Crowe, Senior Mental Health 
  Consultant and Liaison, DOD Defense Centers of Excellence for 
  Psychological Health and TBI
    Oral Statement...............................................     6
    Written Statement............................................     8
Mr. Rory Diamond, Executive Director, K9s for Warriors
    Oral Statement...............................................    14
    Written Statement............................................    16
Mr. Cole Lyle, Veteran with PTSD
    Oral Statement...............................................    27
    Written Statement............................................    29
Mr. Steve Feldman, Executive Director, Human-Animal Bond Research 
  Initiative Foundation
    Oral Statement...............................................    31
    Written Statement............................................    34

                                APPENDIX

H.R. 4764 (114th Congress 2nd Session) Bill Text, Entered by 
  Representative Stephen Lynch...................................    56
H.R. 2493 (114th Congress 1st Session) Bill Text, Entered by 
  Representative Stephen Lynch...................................    62
Letter submitted by Paul E. Mundell, CEO, Canine Companions for 
  Independence, Entered by Representative Stephen Lynch..........    67


            CONNECTING VETERANS WITH PTSD WITH SERVICE DOGS

                              ----------                              


                        Thursday, April 14, 2016

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the subcommittee] presiding.
    Present: Representatives DeSantis, Mica, Hice, Russell, 
Hurd, and Lynch.
    Mr. DeSantis. The Subcommittee on National Security will 
come to order. Without objection, the chair is authorized to 
declare a recess at any time.
    Veteran suicides continue to be a national epidemic. 
Veterans are estimated to have a suicide rate that is 50 
percent higher than those who did not serve in the military. A 
major driver of suicide rates is the incident of posttraumatic 
stress among our veterans. According to the Department of 
Veterans Affairs, between 11 and 20 percent of those who served 
in Operation Iraqi Freedom and/or Enduring Freedom suffer from 
PTS. Other estimates range as high as 29 percent.
    Veterans with PTS may be troubled by intrusive thoughts; 
avoid people, places, and things; and experience hyperawareness 
and nightmares. They may find they are no longer able to trust 
and love those closest to them. Some may even feel that life is 
no longer worth living.
    Unfortunately, many veterans have met significant problems 
in receiving the health care they deserve. The issues regarding 
the inadequate treatment of veterans by the VA have been widely 
reported. These include long wait times and the 
overprescription of dangerous opiates. Identifying and 
utilizing the full range of effective treatments for veterans 
suffering from posttraumatic stress is something that the VA 
must do without delay.
    One treatment that complements existing therapies is the 
connection of veterans with PTS with service dogs. These are 
not comfort dogs or therapy dogs, as useful as those might be. 
Service dogs perform valuable services for veterans, calming 
them during a panic attack, turning on lights in a dark home, 
waking them from nightmares.
    Currently, the VA only provides service dogs to veterans 
with physical impairments. However, a 2010 VA inspector general 
report stated that the VA ``faces challenges implementing the 
guide and service dog program. The VA only started assisting 
mobility and hearing-impaired veterans with service dogs in 
2008, 6 years after being authorized to do so. The VA personnel 
told us the actual demand for service dogs is unknown.'' With 
tens of thousands of veterans returning with mobility and 
hearing impairment from wars due to the use of improvised 
explosive devices and other things, this 6-year delay 
represents a stunning bureaucratic failure.
    The VA contends that there is insufficient evidence that 
service dogs help those with PTS. However, ample scientific 
findings and ongoing research suggest that the VA may very well 
be wrong. Service dogs are not intended to, nor do they cure 
PTS, but they provide a safe, non-addictive tool for veterans 
to live normal, functioning, productive lives and they could 
provide a safe complement to existing treatments for PTS. The 
urgency of the veteran suicide rate demands that we explore 
this option.
    In the 2010 National Defense Authorization Act, Congress 
authorized the VA to conduct a 3-year study on the efficacy of 
pairing veterans with PTS with service dogs. Instead of being 
completed in 2013, the VA study is not expected to be completed 
until 2019. According to the VA, the study has undergone 
``multiple significant and unexpected challenges.'' The first 
phase of the study, referred to as phase 1, began in 2011 and 
had to be suspended and restarted twice, once after two dogs 
bit children and again after dog health issues arose.
    The VA attributed these problems to issues with vendors 
contracted to provide the service dogs. Many of the dogs 
provided by the vendor were of substandard quality and had hip 
dysplasia, a condition that could have been treated earlier if 
the vendor performed standard screening procedures. Of the 26 
veterans that were enrolled in phase 1, only 12 completed the 
study and four more are expected to complete the study in 
February of 2017.
    The issues with phase 1 could have been avoided if the VA 
had properly screened the vendors and had reached out to other 
public and private sector organizations engaged in similar 
ventures, organizations like K9s for Warriors, with is based in 
the district I represent, do not experience these issues 
because of their experience in sourcing and training the dogs.
    Instead of conducting outreach, the VA insisted on 
developing its own veterinary standards for the study, but the 
Department of Defense already has its own military working dog 
standards. In fact, DOD is an internationally regarded trainer 
of dogs and has a team of over 55 personnel, including 14 
veterinarians. Had the VA initially adopted DOD standards, the 
VA could have avoided the $10-$12 million failure of phase 1.
    While the VA eventually did reach out and adopt some DOD 
standards, it appears that development of its own standards was 
largely duplicative and wasteful. The VA began phase 2 of the 
study in December of 2014 with numerous changes based on 
lessons learned from phase 1. These changes included the VA 
hiring its own dog trainers to provide support to veterans 
throughout the study, incorporating DOD veterinary standards, 
and moving the study from one site in Tampa, Florida, to three 
separate sites in Atlanta, Georgia; Portland, Oregon; and Iowa 
City, Iowa.
    Yet the VA is only meeting half of its monthly recruiting 
goal of 12 veterans for this study, similar issues echoed in 
the 2010 VA IG report. This problem is not based on a shortage 
of interested veterans but instead on the VA's problems filling 
dog trainer positions and the alleged complexity of the study. 
With the VA struggling to pair veterans with service dogs, 
other organizations are attempting to fill the void. In fact, 
the committee has spoken with various organizations that 
cumulatively claim to have hundreds of dogs that are trained 
and ready to be paired.
    Contrary to the VA's assertion that ``there is not enough 
research yet to know if dogs actually help treat posttraumatic 
stress and its symptoms,'' there is ample anecdotal and 
scientific evidence that service dogs can help veterans with 
PTS.
    Today, we will hear from witnesses familiar with that 
evidence and from veteran Cole Lyle, who credits his service 
dog with markedly reducing his PTS symptoms.
    Veterans cannot wait until 2018 for the VA to introduce the 
low-cost, low-risk, and high-reward treatment option. The 
problem of veteran suicide is too urgent. For this reason, I 
have introduced the Puppies Assisting Wounded Servicemembers 
Act of 2016, cosponsored by many of my fellow committee 
members, including members on both sides of the aisle.
    This legislation would create a program for veterans with 
the most severe levels of PTS who tried a VA-approved treatment 
and remain very symptomatic to then be referred to an 
accredited service dog organization. The VA would reimburse the 
organization supplying those service dogs, and all funds 
expended would be offset with funds from the VA Office of Human 
Resources and administration expenses for administrative 
offices, conference planning, historic preservation, office 
artwork, and facility interior decor.
    Those who risk their lives for this country deserve the 
absolute best care upon their return, and time is of the 
essence.
    I would like to thank our witnesses for their testimony 
today. We have veterans testifying and many joining us in the 
audience, and I want to thank them very much for their service.
    Mr. DeSantis. And with that, I will recognize the ranking 
member of the Subcommittee on National Security, Mr. Lynch, for 
his opening statement.
    Mr. Lynch. Thank you, Mr. Chairman. I would like to thank 
you for holding this hearing to examine the efforts undertaken 
by the Department of Veterans Affairs to provide service dogs 
to veterans of the U.S. armed forces to assist with treatment 
for posttraumatic stress.
    I would also like to thank today's panel of witnesses for 
helping the committee with its work and again thank all our 
veterans in attendance and active military.
    It is the mission of the Department of the VA to serve and 
honor the more than 21 million dedicated men and women who are 
America's veterans in fulfillment of President Lincoln's 
historic commitment to ``care for those who shall have borne 
the battle and for their widows and orphans.''
    With the formal end of the U.S.-led combat mission in Iraq 
in 2010 and in Afghanistan in 2014, the return of over 2.7 
million veterans from extended service in support of Operation 
Iraqi Freedom, Operation Enduring Freedom, and other war zone 
deployments, the fundamental duty of the VA to provide 
dignified care to America's veterans and their families remains 
as critical as ever. In turn, our continued and bipartisan 
oversight of the VA is essential to ensuring that the agency is 
able to carry out its important mission.
    As most recently evidenced by the generation of post-9/11 
veterans returning from the wars in Iraq and Afghanistan, 
effective treatment for posttraumatic stress, also known as 
PTSD, is one urgent area of veterans' health care that the VA 
and Congress must continue to strengthen. According to the VA's 
National Center for Posttraumatic Stress, 20 percent of our 
veterans who served in Operation Iraqi Freedom or Operation 
Enduring Freedom have PTS in a given year.
    The prevalence of posttraumatic stress among our Iraqi and 
Afghan veterans is primarily the result of multiple tours of 
duty and repeated, severe, and constant combat exposure. 
Moreover, the VA has reported that veterans with PTS are 
particularly vulnerable to the risk of suicide, which continues 
to affect veterans at a devastating rate. Last month, the VA 
under secretary for health David Shulkin, again estimated that 
every day approximately 22 veterans take their lives in this 
country, and that is tragic.
    Similarly, the Department of Defense reported last week 
that suicide rates for active duty service members remain high 
for the 7th year in a row with 265 active duty service members 
lost to suicide in 2015. We are clearly failing to meet our 
obligations to our returning and active service members.
    The impact of posttraumatic stress in our veterans' 
community is a complex and far-reaching issue that demands a 
comprehensive approach to treatment and rehabilitation. This 
includes robust funding for the VA to continue to expand its 
mental health services. And I was proud to join the chairman to 
support the bipartisan omnibus funding bill passed by Congress 
and signed by President Obama at the end of last year that 
would provide $50 billion for VA medical services and 
specifically targets mental health care and suicide prevention.
    We must also encourage the development of commonsense 
alternative solutions that could further assist veterans with 
PTS rehabilitation. One alternative is the topic of today's 
hearing, providing service dogs to veterans with PTS to help 
alleviate their related symptoms.
    As noted in the American Medical Association Journal of 
Ethics in June of 2015, ``Initial academic studies have 
revealed that veterans paired with service dogs report less 
severe PTS symptoms, stronger social relationships, decreased 
substance abuse, and other increased health benefits.''
    Pursuant to the Defense Authorization Act for fiscal year 
2010, Congress itself mandated the VA to conduct a 3-year 
study, as noted by the chairman in his remarks. That study was 
to examine the benefits of using service dogs for the treatment 
of rehabilitation of veterans with physical or mental injuries, 
including PTS.
    Regrettably, as the chairman has noted, the VA encountered 
numerous challenges in getting this study off the ground, 
including inadequate oversight over its service dog vendors and 
inconsistent service dog training standards. As a result, 
again, as the chairman has noted, the agency now expects to 
complete the study in November of 2018 or into 2019.
    I understand the VA is taking steps to address these 
problems. However, a delay for a study of this importance for 
this amount of time is simply unacceptable. And I look forward 
to examining the progress of this further study with our 
witnesses.
    And I also think that the chairman's idea of going forward 
with a pilot program, which can be based on the evidence in 
hand today, is a great way to go at this problem.
    So I am proud to cosponsor two pieces of bipartisan 
legislation that have been introduced in Congress to facilitate 
the use of service dogs to assist our veterans.
    Chairman DeSantis, my colleague on this committee, has 
introduced H.R. 4764, a bill to require the VA to commence the 
service dog pilot program right away that is specific to post-
9/11 veterans with severe PTS. And I am proud to join him on 
that.
    Also, Representative Jim McGovern of Massachusetts has also 
reintroduced legislation to establish a grant program to assist 
nonprofit organizations in developing and establishing service 
dog programs for veterans. And, Mr. Chairman, I would ask 
unanimous consent if I could please submit Mr. McGovern's 
legislation for the record.
    Mr. DeSantis. Without objection.
    Mr. Lynch. And there is a supporting statement into the 
record as well.
    Mr. DeSantis. Without objection.
    Mr. Lynch. Thank you, sir.
    As evidence continues to show that service dogs are one way 
of helping veterans with PTS, I certainly support the expansion 
of these efforts.
    Mr. Chairman, thank you again for holding this important 
hearing, and I yield back the balance of my time.
    Mr. DeSantis. I thank the gentleman. And thank you for the 
support for the efforts.
    I will hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    We will now recognize our panel of witnesses. I am pleased 
to welcome Dr. Michael Fallon, chief veterinary medical officer 
at the Office of Research and Development at the U.S. 
Department of Veterans Affairs; Mr. Rory Diamond, executive 
director of K9s for Warriors; Mr. Cole Lyle, a U.S. Marine 
veteran who has posttraumatic stress; and Mr. Steve Feldman, 
executive director of the Human-Animal Bond Research Initiative 
Foundation. Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. If you please rise and raise your right 
hands.
    [Witnesses sworn.]
    Mr. DeSantis. Thank you. Please be seated.
    All witnesses answered in the affirmative.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your entire written statement will be 
made part of the record.
    Dr. Fallon, you are recognized for 5 minutes.

                       WITNESS STATEMENTS

                  STATEMENT OF MICHAEL FALLON

    Mr. Fallon. Thank you. Good afternoon, Chairman DeSantis, 
Ranking Member Lynch, and members of the subcommittee. Thank 
you for the opportunity to update the committee on progress in 
the VA PTSD service dog study, which pairs veterans with PTS 
with service dogs. I am accompanied today to my right by Dr. 
Patricia Dorn, director of the Rehabilitation Research and 
Development Service; and Dr. Chris Crowe, senior mental health 
consultant and liaison to the DOD Defense Centers of Excellence 
for Psychological Health and TBI.
    The 2010 National Defense Authorization Act directed VA to 
undertake a study to assess the benefits, feasibility, and 
advisability of using service dogs for the treatment or 
rehabilitation of veterans with physical or mental injuries or 
disabilities, including PTSD. The benefits of utilizing service 
dogs and guide dogs for physical disabilities are well 
established. Therefore, VA designed the study to focus on 
veterans with PTSD because PTSD is a high-priority health issue 
in veterans, and the benefits of service dogs in assisting 
people with PTSD are not established in the scientific 
literature.
    This is a groundbreaking study that aims to determine if 
veterans with PTSD would benefit from a service dog. For the 
study, VA hired its own dog trainers to provide obedience and 
handling support to veterans after they receive a dog, thus 
reducing experimental bias in the study.
    VA also developed its own contract health, behavior, and 
training standards for dogs. Three studies cites--Atlanta, Iowa 
City, and Portland, Oregon--are operating and enrolling 
veterans from different parts of the country. Approximately 
once a quarter for 21 months, measures are taken of self-care, 
interpersonal interactions, and social participation, the 
severity of PTSD symptoms, sleep-related problems, suicidal 
ideation, the severity of mood disorders and substance abuse, 
anger directed at others, inpatient and outpatient visits, 
medication usage, and measures of employment and work 
productivity.
    Veteran enrollment in the multisite phase of this study 
began in December of 2014. As of this week, 109 of 220 veterans 
have been enrolled in the study, and all three study teams will 
be fully staffed to achieve an enrollment rate of 12 to 15 
veterans per month, which would allow all 220 veterans to be 
enrolled by the end of this year or early 2017. Data collection 
will end in late 2018. The data will then be analyzed, and the 
results will be published in a peer-reviewed scientific 
journal.
    While VA does not purchase service dogs for veterans, VA 
does provide veterinary care benefits to eligible veterans to 
managing visual, hearing, or substantial mobility impairment to 
enable the veteran to live independently. Currently, VA does 
not provide veterinary care benefits for PTSD or mental health 
dogs because research has not shown them to be effective in 
overcoming specific functional limitations.
    The carefully designed VA study is incredibly important in 
addressing shortcomings in the existing research literature 
that has been reported by others. The VA continues to monitor 
other scientific literature for quality evidence to inform 
future policies and remains strongly committed to completing 
the current study at an estimated cost of at least $12 million.
    VA is strongly committed to the delivery of the best care 
for veterans with PTSD. Advances in research have led to a 
range of effective treatments that reduce symptoms and increase 
functioning and well-being. The VA/DOD evidence-based Clinical 
Practice Guideline recommends the following as first-line 
treatments: trauma-focused cognitive behavioral therapies such 
as prolonged exposure, or PE; and cognitive processing therapy, 
or CPT; eye movement desensitization and reprocessing; stress 
inoculation; selective serotonin reuptake inhibitors; and 
venlafaxine, a serotonin norepinephrine reuptake inhibitor.
    Research demonstrating the effectiveness of PE and CPT is 
particularly strong. VHA Handbook 1160.01, Uniform Mental 
Health Services in VA Medical Centers and Clinics, requires 
that all VA medical centers provide access to either PE or CPT. 
VA has supported this requirement by training upwards of 7,000 
therapists in PE and CPT as part of a broader initiative to 
disseminate evidence-based psychotherapy for mental disorders. 
Uptake of evidence-based therapy such as the CPT across the VA 
healthcare system was rapid.
    For veterans who choose other treatment approaches, the VA 
offers a range of options to treat PTSD and associated 
symptoms. VA is a leader in developing evidence-based therapy, 
the global standard for PTSD treatment.
    Mr. Chairman, as a veteran myself, firmly committed to the 
successful completion of the study, I appreciate the 
opportunity to appear before you today. I and my colleagues are 
prepared to answer any questions the committee may have. Thank 
you.
    [Prepared statement of Mr. Fallon follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    Mr. DeSantis. Thank you, Dr. Fallon.
    Mr. Diamond, you are now recognized for 5 minutes.

                   STATEMENT OF RORY DIAMOND

    Mr. Diamond. Thank you, Mr. Chairman. Thank you, ranking 
member, members of the committee. We are absolutely thrilled to 
be here to talk about this very important matter.
    My name is Rory Diamond. I'm the Executive Director of K9s 
for Warriors. We are the Nation's largest provider of service 
dogs for veterans with PTS, traumatic brain injuries, and/or 
who have been victims of military sexual trauma.
    With me today is Brett Simon, the founder of K9s for 
Warriors, and the current head of our K9 division. We also have 
two of our graduates. We have Joe Swoboda, an 18-year Army 
veteran who did three tours in Iraq. And he's with his service 
dog Lilly. I also have with me Adam LeGrand, a 10-year Air 
Force veteran who helped men and women in uniform as a medic. 
He's with his service dog Molly.
    As has already been mentioned, statistically speaking, 22 
veterans are going to commit suicide today. That's why K9s for 
Warriors exists. We are founded by a mom. Her name is Shari 
Duval, and she was worried about her own son's PTS.
    Five years later, K9s for Warriors has grown into an 
organization with a 36 dedicated staff. We have a 9-acre, 
17,000 square foot state-of-the-art campus in Ponte Vedra 
Beach, Florida. And most important, we have a track record of 
helping hundreds of veterans overcome the symptoms associated 
with PTS. Importantly, we are very successful at preventing 
veteran suicide.
    Every warrior that comes through our door gets the family 
treatment, I would say. They get a service K9, they get 
equipment, training, certification, seminars, legal 
instruction, vet care, housing, home-cooked meals. We have 
house moms who listen to them. We have house dads who provide 
advice. And frankly, we have full wraparound services and 
follow-up for the life of the dog and the life of the veteran.
    At K9s for Warriors we say we always have our veterans' 
backs, and we absolutely never charge our veterans. Our program 
is 100 percent free.
    We've had two independent sets of researchers evaluate our 
program. These are Ph.D.'s who looked at the efficacy of our 
program, have come back with the exact same conclusion: The 
program works. The dogs are effective.
    Let me just provide a flavor of this. The average K9s for 
Warriors applicant is on 10 to 15 medications. Fully 92 percent 
of them will reduce or eliminate those medications after 
receiving their dog. Seventy-three percent of our graduates 
improve their overall health. Eighty-five percent will handle 
anxiety better. Eighty-two percent report having fewer suicidal 
thoughts and suicidal ideation. Seventy-seven percent report a 
reduction of nightmares or night terrors, finally being able to 
get a full night's sleep and being able to get back on a 
lifecycle.
    As Adam LeGrand, who is behind me, says about his service 
dog Molly, ``She gives me the ability to be a father and a 
functioning member of society again.'' And Joe, who is behind 
me, also says, ``I just wouldn't be here without Lilly. She is 
the light in the darkness of PTSD.''
    So when we hear and read on the VA's website that there is 
``not enough research yet to know if the dogs actually help 
treat PTS and its symptoms,'' we fundamentally disagree. There 
is not a void of research in this regard that we don't know 
whether or not a service dog can help mitigate the symptoms 
associated with PTSD and its associated comorbidities. There is 
enough research. K9s for Warriors is an example of how that can 
work.
    Given the current crisis of veteran suicide in America, we 
think it makes sense to err on the side of providing more 
options for our veterans. What is the harm here? The very worst 
thing that could happen is a veteran ends up with a dog. But 
the VA's response is something that we have seen over and over 
and over again, that there is a reluctance to agree that this 
can work.
    Our warriors report to us, and they come from all over the 
country, 42 States, 150 cities, and we ask them all the time, 
tell us, how is the VA treating you? How is your PTS being 
treated? And this is what they tell us, and it's shockingly 
similar and frustrating to hear it over and over again:
    They wait and they wait and they wait and they finally get 
an appointment. Then they go and get their appointment at the 
hospital and they wait hour after hour after hour, and finally, 
they get in front of a psychologist or a psychologist or a 
clinical social worker, and they have their moment.
    And let's understand what this moment is. This is the one 
lifeline our government is giving these veterans to recover 
from PTS. This is their one chance. And do they get 45 minutes 
of a discussion of the wonderful panoply of options that we 
just heard Dr. Fallon talk about? No. They report to us they 
get 10, 15 minutes maybe. The first question is always about 
how are your meds? And then I guarantee you they walk out with 
another prescription drug. The VA has three responses to the 
PTS crisis in America: Drugs, drugs, and more drugs to help you 
with the drugs we already gave you. That is the response, and 
we find it unacceptable.
    The VA in our opinion has fumbled the first round of the 
pilot program. In our opinion, we have no confidence that they 
will successfully pull off the second round. We see an 
immediate veteran suicide crisis today. We believe the time is 
now, not after the VA gets their act together, but right now, 
to start saving these lives.
    We appreciate the chairman's leadership on this issue and 
would be happy to answer questions.
    [Prepared statement of Mr. Diamond follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    
    Mr. DeSantis. Thank you.
    Mr. Lyle, you are up for 5 minutes.

                     STATEMENT OF COLE LYLE

    Mr. Lyle. Well, thank you, Chairman DeSantis, Ranking 
Member Lynch, distinguished Representatives of the 
subcommittee. I appreciate the opportunity to testify.
    I'd like to begin by saying that I'm not here for myself. 
I'm here strictly for my brothers and sisters still struggling 
to transition to post-military life while also struggling with 
posttraumatic stress and no other options besides drugs and 
therapy. I'm here for those of us in the veteran communities 
who have been left behind and continue to deal with the pain of 
suicide, as other veterans see no way out. I'm here for the 
veterans who have lost faith in the system, lost hope for 
themselves, and have lost purpose in their lives. I'm here for 
the men and women that, like myself, have had to go it alone 
and acquire their service dogs at extraordinary financial 
burden to them.
    For these reasons, I've been fighting for the last year to 
change the existing VA policy. I believe that allowing veterans 
to fight PTS without all options available to them is 
tantamount to sending our military to fight an enemy without a 
secondary weapon in their arsenal.
    While in Afghanistan for the majority of 2011, my unit 
served in the kinetic Helmand Province. I was based out of Camp 
Leatherneck but spent some time with the British and ISAF 
forces near Marjah on a Royal air base in Lashkar Gah. My 
physical injuries as a result of military service are 
insignificant relative to my fellow veterans.
    But like many veterans today who show little signs of 
physical injury, there are many scars beneath the surface. 
During the last few months of my deployment, as our 
replacements were starting to arrive and take over the 
operational capabilities of our unit, I felt I wasn't doing 
enough to help the cause of our war fighters. I started 
volunteering my time, largely during sleep hours, at a severely 
understaffed Bastion trauma center. It was there, mentally 
unprepared for the new volunteer role I assumed, that has 
affected me most in my post-deployment transition.
    Upon returning stateside, veterans take a post-deployment 
health assessment, which indicated that I needed to seek 
treatment for posttraumatic stress. I started to utilize the VA 
system, and eventually, I met with a psychologist who confirmed 
the preliminary results of the health assessment. I was then 
prescribed sleep aids and antidepressants and told to utilize 
what's called a Veterans Center in my local area for 
counseling.
    A little less than 2 years on this path, the symptoms 
seemed to stagnate or get worse. Upon discharge from the Marine 
Corps in early 2014, interpersonal relationships were harder to 
maintain than necessary, along with not having the support 
system of my fellow marines and the chain of command. I didn't 
have a civilian job, was not in school yet, and simultaneously 
was experiencing a divorce.
    In the same few months, I would experience what most 
veterans now are all too familiar with: the loss of military 
friends to preventable suicide. Many of these veterans had 
gotten addicted to the slew of pills prescribed to them and 
lost even a glimmer of hope in their lives. Some of these men 
and women had spouses, had children, mothers, fathers, and 
friends they left behind because the status quo of treatment 
for posttraumatic stress failed them.
    Life as I'd known it had been ripped away, and one night 
alone, I decided to end it all. It is only for the timing of a 
friend, a fellow marine, arriving on my doorstep at that exact 
moment that I'm here right now, semper fidelis indeed.
    The next day I quit medication cold turkey, not wanting to 
continue down the dark path of opiate addiction. I sought 
another way and found that a trained service dog was an option, 
but not one provided by the VA. Further inquiry to local 
nonprofits similar to K9s for Warriors resulted in wait times 
over a year, with the demand being as high and nonprofit-based 
budgets what they are.
    A few months after searching myself, I got Kaya, who's at 
my feet today, who quite literally pounced into my life. I had 
her obedience trained, then subsequently trained for 
posttraumatic stress symptoms by an Assistance Dogs 
International-accredited trainer. After roughly $10,000 all 
told with my family's assistance, of my own money, I got the 
help I needed. Yet today, many veterans still don't have those 
resources.
    I still have my bad days, but with Kaya at my side, I'm 
largely in a different phase. I call it recovery. Retired 
Marine General James Mattis calls it posttraumatic growth. The 
bad days are less frequent than they've ever been, and they 
mainly come when I get news of another friend who has committed 
suicide.
    Since starting this quest, more and more of the veteran 
community have come forward to impart upon me the stories of 
their brothers and sisters who have taken their lives. Just 
last week, a close friend of mine in Texas lost a marine he 
served with to suicide. A month ago, one of my best friends who 
I deployed with, and the father of my goddaughter, admitted to 
me that he had gotten close and also would have succeeded had 
another marine not stepped in.
    They all come to me pleading, in fact begging, to use what 
voice I have in this chamber and in the halls of Congress to 
give you all this message: Service dogs will save lives. And 
with the current epidemic of veteran suicides, it is 
unconscionable to keep the status quo and wait any longer to 
institute this change we all know is a viable solution to 
reduce the epidemic of veteran suicides.
    Thank you very much for the opportunity to testify, and I 
look forward to answering your questions.
    [Prepared statement of Mr. Lyle follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    
    Mr. DeSantis. Thank you.
    Mr. Feldman, you are up for 5 minutes.

                   STATEMENT OF STEVE FELDMAN

    Mr. Feldman. That's a tough act to follow.
    Mr. Chairman, Ranking Member Lynch, members of the 
subcommittee, thank you for the opportunity to testify today.
    I'm Steve Feldman. I'm the executive director of the Human-
Animal Bond Research Initiative. That's HABRI for short. We're 
a nonprofit research and education foundation that funds 
research on the benefits of companion animals to human health, 
and specifically, we're looking at children with autism, we're 
looking at victims of domestic violence, and we're looking at 
how we can use these animal-assisted interventions for veterans 
with posttraumatic stress.
    In addition to funding this research, we also have built 
and maintained the world's largest research library on human-
animal interaction, and that's free and online and available 
and searchable to anyone who's doing research in this area.
    And we also support commonsense public policies that should 
reflect the definitive body of science that show significant 
positive health impacts that companion animals have on human 
health.
    The VA says it doesn't have enough evidence to support 
service animals for veterans with PTS. We respectfully 
disagree, and that's why we support H.R. 4764. We believe there 
is significant scientific evidence to support the efficacy of 
service dogs for veterans with PTS.
    We funded the first systematic review of research on 
animal-assisted intervention for victims of trauma. That was 
conducted at Purdue University, Dr. Fallon's alma mater, and it 
was published less than a year ago. And what it found was 
preliminary evidence that animals provide unique elements to 
address PTS symptoms.
    And I think it's also really important to note, because Mr. 
Diamond said what's the harm, this systematic review of 
published and unpublished research found no negative effects 
from any of these studies. So no harm was found in any of the 
research that we looked at. So we think this supports the 
conclusion that service dogs for trauma survivors, including 
veterans with PTS, can positively effect depression, anxiety, 
social outcomes, sleep, and quality of life.
    And we're currently funding a pilot study on the effect of 
service dogs on mental health and wellness in military veterans 
with PTS. Scientists are measuring psychological and 
psychosocial functioning, including symptoms of PTSD, 
depression, life and relationship satisfaction, and quality of 
life in 137 military veterans diagnosed with PTSD who either 
have a service dog or who are waiting to receive one. And the 
ones who are waiting to receive one is our control --scientific 
control group.
    And so the preliminary unpublished results indicate that 
military veterans with service dogs exhibit significantly lower 
overall PTS symptoms severity, and that includes better ability 
to cope with flashbacks and anxiety attacks; reduced frequency 
of nightmares and less overall sleep disturbance; lower 
anxiety, depression, and anger; higher levels of companionship 
and social reintegration; increased overall psychological well-
being; and higher levels of life satisfaction and resilience. 
And we have to wait for the final results of this study to be 
published in a peer-reviewed scientific journal, which we 
expect to happen later this year, but we wanted to bring you 
these preliminary outcomes because they're so encouraging and 
so important to the discussion today.
    And I also urge the committee and the VA to look broadly at 
research studies that really look at several key measures of 
mental health and well-being like depression, anxiety, stress, 
and social integration, all of which are associated with PTS. 
My written testimony covers these in great detail, and you can 
find even more studies in our database.
    And that's why an organization like HABRI can be hopefully 
really helpful because we're looking at the broad spectrum of 
research, not just one little narrow slice of it. And that 
broad spectrum of research is pretty definitive. You know, for 
example, we're looking at what happens in a person's brain when 
they interact with an animal. The level of oxytocin, which is a 
good hormone, goes up. The level of cortisol, which is the 
stress hormone, goes down. And so when fingers meet fur, 
there's something really fantastic that's happening, and I 
think we've heard about some of the specific examples today.
    You know, if you combine those scientifically documented 
therapeutic effects with the trained actions of a service dog, 
you get a powerful combination. The Americans with Disabilities 
Act recognizes service dogs for PTSD in their regulations, and 
States are increasingly updating their definition of service 
animals. Just last year, the State of Florida passed a law to 
expand protections of service animal statutes to include 
traumatic brain injury and PTSD. And the inclusion of these 
protections allows veterans who have a disability that may not 
be outwardly visible to have access to public accommodations 
with their service dogs. Sometimes these symptoms manifest 
themselves in public, so while pets and emotional support 
animals can provide some of the benefits we've just been 
discussing, it's only a trained service dog that has full 
public access that can provide that animal-assisted 
intervention wherever and whenever it's really necessary for a 
veteran with PTSD.
    You know, what about the doctors on all this? We did a 
survey last year which showed--of 1,000 doctors which showed 
that 69 percent of them have worked with animals and hospitals, 
medical centers, or medical practice, and 88 percent of doctors 
a saw improvement in a patient's physical condition and 97 
percent saw an improvement in patients' mental health condition 
as a result of animal-assisted intervention. So doctors are 
likely to be really supportive if we can get this program 
going, and really willing participants as we provide service 
dogs to veterans with PTS.
    So I just want to conclude by saying there is a growing 
body of research that demonstrates widespread positive mental 
health impacts from the human-animal bond, and we hope that you 
and the VA will take this broad evidence into consideration 
when shaping public health policy both in relation to 4764 and 
beyond.
    And I hope the members of the subcommittee and the VA will 
rely on HABRI as a resource. That's what we're here for, to be 
a scientific resource for anyone who's interested in this.
    With PTS affecting so many of our veterans, we need to make 
sure that everyone has access to service dogs. And H.R. 4764 
really is a great step in the right direction, and that's why 
we fully support the legislation.
    So, Mr. Chairman, Ranking Member Lynch, members of the 
committee, I really want to thank you. I want to thank your 
hardworking staff, and especially, Mr. Chairman, thank you for 
your leadership on this issue. And I'm happy to answer any 
questions that you may have.
    [Prepared statement of Mr. Feldman follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    
    
    Mr. DeSantis. Thank you. I thank the witnesses. The chair 
now recognizes himself for 5 minutes.
    Dr. Fallon, so why does the reject pairing veterans 
suffering from PTS with service dogs?
    Mr. Fallon. We don't, Mr. Chairman. VA is thrilled that 
service dogs help veterans. It's just, as a large medical 
organization, we have to rely on evidence-based medicine. The 
veteran population is very heterogenous. What helps one veteran 
is not going to help all. We have to ----
    Mr. DeSantis. Have any of the preliminary results that have 
been pointed to by the witnesses at Purdue or any of those, has 
that changed any of the thinking within the VA?
    Mr. Fallon. Well, Mr. Chairman, I would point out that in 
the publication that was funded by HABRI, Dr. O'Hare published 
in 2015, one of her main conclusions was that more research 
needs to be done. That's right out of the paper. She also 
documented a number of deficiencies in the literature. She also 
was quoted in Military Times article on her work that nonbiased 
research needed to be completed. This was in 2015.
    Mr. DeSantis. So that said, so the VA's approach to PTS, is 
it fair to say that it relies heavily on pharmaceuticals?
    Mr. Fallon. I'm a veterinarian, Mr. Chairman. I couldn't --
--
    Mr. DeSantis. But you are not familiar with how these 
veterans--so basically, you are just here as a veterinarian. 
You don't have as much knowledge on just PTS generally?
    Mr. Fallon. No, Mr. Chairman. My role here is to update you 
on our study. I certainly would not pretend to be an expert in 
human clinical medicine.
    Mr. DeSantis. Okay. Well, because I think all the 
indications we have received from witnesses, from veterans are 
that, you know, you get counseling, you get drugs. I mean, that 
is kind of the two things. And that is effective for some 
people, but there are other people, and I think Cole Lyle is 
one, that will say but that is not good. So maybe you can't 
answer this, but are there dangers associated with providing 
veterans opioids and other pharmaceuticals to deal with PTS?
    Mr. Fallon. I couldn't comment on that, Mr. Chairman.
    Mr. DeSantis. Okay. Well, what would you say to that, Mr. 
Diamond?
    Mr. Diamond. If you look at the Wikipedia entry for some of 
these opiates, they clearly set down an entire list of side 
effects, including increased suicide. In our opinion, a dog is 
not going to cause any harm, and yet we see every single month 
our classes, the warriors are transforming. They come in and 
they're a wreck. They're overmedicated, they are lost, they are 
frightened just to have left their homes.
    And we see them over 3 weeks working with our staff, 
working with their service dog as that bond kicks in, that they 
become different people. And they are able to go out the front 
door again. They're able to go to a store again. They're able 
to go to the beach in Florida again. And these are things that 
they could not do without their service dog. It opens the door. 
It lowers barriers to even getting other help. They become more 
like the people they were before they went off to war.
    Mr. DeSantis. Mr. Feldman, can you--the opioids, I mean, is 
there a danger of side effects with that? Is that accurate to 
say that that is the case?
    Mr. Feldman. I think pretty much everyone knows that, but I 
do want to respond to something that Dr. Fallon said.
    You know, we're here in Washington and so we've--there's a 
lot of people who do regulations. You're never going to meet a 
regulator who says we have enough regulations. You're never 
going to meet a researcher who says we have enough research. So 
of course we need to continue to do more research, and that's 
what we're funding right now. But when you add it all up, we 
really do think there's enough research to substantiate this 
program.
    Mr. DeSantis. Has there been any research that 
substantiates dangerous side effects with pairing a veteran 
with a service dog?
    Mr. Feldman. No, sir. There is in fact an absence of that 
evidence.
    Mr. DeSantis. Cole Lyle, have you had any negative side 
effects since you have been paired with your service dog?
    Mr. Lyle. That's a strong negative, Mr. Chairman.
    Mr. DeSantis. So, I mean, I think we all agree that veteran 
suicides are a major problem. We need to do everything we can 
to prevent them. And I think it makes sense that the VA should 
explore all possible ways that this can be dealt with. And I 
understand that there may not--that, you know, people can say, 
well, we need more literature, but, you know, we have enough 
evidence there that I think it is something that is long 
overdue.
    Let me ask you this, Mr. Feldman. How is the VA's 
opposition to providing service dogs harm veterans with PTS?
    Mr. Feldman. Well, I guess I'll just speak as a citizen on 
this one. I just don't think the words veteran and waiting list 
sort of belong in the same sentence. And while, you know, K9s 
for Warriors and other organizations like it are doing their 
best to put as many paws on the ground as they possibly can, 
the only way we're really going to get this done is if we have 
the VA providing that kind of support.
    Mr. DeSantis. What about Mr. Diamond? What is your judgment 
about the VA's posture? How has that affected veterans?
    Mr. Diamond. It's cost lives. There's no question that 
there are thousands of veteran suicides that could have been 
prevented had they had the access to a service dog.
    Mr. DeSantis. And Cole Lyle, I know you have been involved 
in advocacy on this issue. You have gone through the halls of 
Congress and spoken with people. What has been the reception 
from Members of Congress and on both sides of the aisle so far?
    Mr. Lyle. Mr. Chairman, the response has been 
overwhelmingly supportive. We have bipartisan support on H.R. 
4764. This is not a partisan issue. Everybody knows that we 
need to take care of our veterans. Of course, we have different 
ideas about how to go about that, but I personally walking the 
halls of Congress and speaking with Democrats, Republicans, 
conservatives, liberals, everybody agrees that this is a good 
idea and that we should do it.
    Mr. DeSantis. Well, you have done a very good job. You 
know, as this bill progresses and we have success, some of 
these guys on K Street may be coming after you, like I say, 
your success and work in Congress.
    And, Mr. Diamond, I think K9s for Warriors has done a great 
job. It is a part of the district that I am privileged to 
represent. And I know you guys have expanded and you are there 
to help, but, I mean, you can only do so much. I mean, I wish 
you guys could just have unlimited numbers. You know, so you 
guys are part of it, but I think we need to have a broader 
awareness here.
    But I appreciate all the witnesses for their testimony, and 
I thank you guys for coming.
    And I now recognize the ranking member Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    Just for the record, we had some hearings over in the 
Senate on veterans and opiod addiction. And this is a 2015 
hearing. And in response to questions around opiod disorder by 
Senator Joe Donnelly of Indiana, VA indicated that about 68,000 
veterans in 2015 had opiod use disorders. I think it represents 
about 13 percent of the total population of veterans currently 
taking opioids according to the VA. If 68,000 have opiod use 
disorders and that is 13 percent of the veterans on opioids, 
that is a huge, huge problem.
    A couple of the witnesses have mentioned the cost. And we 
just had an opportunity to go to Iraq last week, Anbar 
Province, and they had a couple of dogs they had trained, but 
those are trained for bomb detection. But I asked. I asked the 
DOD. I said what does it cost for us to train a dog in that 
context? And they said $55,000 each. But that is DOD. You know, 
I am not surprised that the private sector is doing it for a 
heck of a lot less. And that is probably apples and oranges. 
They get trained for something particularly different.
    But, Mr. Lyle, first of all, thank you for your courageous 
service to our country and you are helping veterans still. That 
$10,000 that you mentioned, is that what it cost you to ----
    Mr. Lyle. Yes, sir. That's what it cost me to acquire Kaya, 
to pay for her training and all initial veterinary care for 
her.
    I would note that $10,000 ----
    Mr. Lynch. Is that acquisition as well when you ----
    Mr. Lyle. Yes. Yes.
    Mr. Lynch. Yes? Okay.
    Mr. Lyle. I would note that $10,000 is, quite frankly, 
cheap ----
    Mr. Lynch. Yes. Yes.
    Mr. Lyle.--for ----
    Mr. Lynch. Well, the life of the dog and the benefit that 
it conveys, you are right, absolutely.
    Mr. Lyle. Well, the $10,000, I would pay it 10 more times 
if I had to do it over again.
    Mr. Lynch. Don't let the DOD hear you say that.
    Mr. Lyle. Yes, I mean--but it has paid dividends in how I'm 
able to overcome specific symptoms associated with military 
experience, and I would recommend it highly to anybody who 
feels as though opiates and traditional therapies just aren't 
working for them.
    Mr. Lynch. Okay. Thank you.
    Mr. Diamond and Mr. Feldman, Mr. Diamond first, 17,000 
square feet--I am not sure--you mentioned your facility down in 
Florida. And obviously, there are efficiencies of scale because 
you are training so many dogs. How many dogs do you probably 
train at a time?
    Mr. Diamond. Right now we have at capacity for about 30 
dogs on our campus.
    Mr. Lynch. Wow.
    Mr. Diamond. In a couple of months we'll have capacity for 
about 60.
    Mr. Lynch. Okay. And what do you see in terms of the costs 
of you, you know, more professionally, you know, doing it 30 
times at a whack? What do you see your costs on average?
    Mr. Diamond. Well, we're finally seeing economies of scale. 
Two years ago we were about in the 40s. This past year we were 
at about $32,000; this year, $27,000; and then we expect next 
year for the entire 3-week program plus all the, you know, 
lifetime wraparound services to be about $22-$23,000. So we've 
finally hit economies of scale.
    And I would echo Mr. Lyle's comments. We think that it's a 
savings to the government with the reduction in use of 
prescription drugs, reduction in use of VA services generally 
speaking, and just merely the higher quality of life, the 
better human being you get at the end of it ----
    Mr. Lynch. Yes.
    Mr. Diamond.--is a huge cost-savings for the country.
    Mr. Lynch. Yes. And what is the lifespan, the average 
lifespan of one of the dogs?
    Mr. Diamond. It's between 8 and 12 years ----
    Mr. Lynch. So 10 years ----
    Mr. Diamond.--so depending on ----
    Mr. Lynch.--you know, yes. Mr. Lyle, you had something 
else?
    Mr. Lyle. Congressman Lynch, I would note that 8 to 10 
years--Kaya started helping me within weeks.
    Mr. Lynch. Yes.
    Mr. Lyle. It does not take 8 to, you know, 12 years for 
these dogs to really assist veterans.
    Mr. Lynch. Oh, no, no, no, no, no. I mean, they are 
training her throughout that 10 years or so, so that is the 
service that is being rendered. You divide the cost of training 
and acquisition over the 10 years. You amortize it, I guess.
    Mr. Feldman, do you have anything else you would like to 
add?
    Mr. Feldman. Well, you mentioned cost. I can tell you that 
the pilot study, looking at 137 veterans, which we announced 
the funding for last year and which will be completed next 
month and probably published later this year, that whole study 
cost just upwards of $50,000, and we're getting results, you 
know, within a 2-year period. And so, yes, we need to do more 
research, but it doesn't have to take that long or cost that 
much.
    Mr. Lynch. Yes. You know, you see the number of veterans 
that we are treating with opioids, and there is just no happy 
ending there with the addiction rate we have, so we have got to 
try something different.
    My time is expired. Thank you for your indulgence, Mr. 
Chairman.
    Mr. DeSantis. I thank the gentleman.
    And the chair now recognizes the vice chairman of the 
committee, Mr. Russell, for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman, and thank you each 
for being here today.
    Dr. Fallon, I noticed that you served in the military. 
Thank you for your service.
    Mr. Fallon. Sure.
    Mr. Russell. When you did serve, you served in a veterinary 
capacity, as I understand it, is that correct?
    Mr. Fallon. Yes, sir, I was a veterinary technician.
    Mr. Russell. In that time in your service did you develop a 
bond with the animals under your care?
    Mr. Fallon. Oh, absolutely, sir, yes.
    Mr. Russell. And would you say that now as a doctor of 
veterinary medicine do you develop a nurturing bond with the 
animals in your care?
    Mr. Fallon. Absolutely, sir.
    Mr. Russell. Okay. Do you see dangers associated with 
pairing service dogs with veterans?
    Mr. Fallon. Well, as the chairman mentioned, I have seen 
problems with dogs, particularly dogs that are not properly 
trained. For instance, we had those two children that were 
bitten, which was a tragedy, certainly didn't help those 
veterans. Also, there are some things to take into 
consideration. If a dog becomes sick, ends up with a chronic 
illness, there can be huge veterinary bills associated. The 
veteran can actually become quite depressed. We've seen this 
anecdotally ----
    Mr. Russell. And how would you compare that, say, with 
veterans suffering from opiod abuse, harming their families, 
their own children ----
    Mr. Fallon. I ----
    Mr. Russell.--maybe harming others around them and getting 
in a depressed state? Which would you say is more of a danger?
    Mr. Fallon. I couldn't comment on that, sir. Again, I'm a 
veterinarian. I mean, clearly, all those things are terrible 
things, though.
    Mr. Russell. Do you personally believe veterans would be 
harmed by their care and association with service dogs?
    Mr. Fallon. I do not know the answer to that question. I'm 
a--I'm ----
    Mr. Russell. But you have a lot of experience here, Dr. 
Fallon. I mean, you served in the military ----
    Mr. Fallon. I do, sir ----
    Mr. Russell.--dealing with animals, you are a doctor of 
veterinary medicine. You have handled a lot of animals in your 
life. You have done extensive research and study. I just want 
to know, since you came as an expert testifying before 
Congress, I am just curious of your personal opinion.
    Mr. Fallon. I'm reluctant to give my ----
    Mr. Russell. Do you personally believe ----
    Mr. Fallon.--personal opinion.
    Mr. Russell.--veterans would be harmed by their care and 
association with service dogs?
    Mr. Fallon. I'm reluctant to give my personal opinion, sir, 
because it could affect the study, it could bias the study, so 
I would prefer not to do that.
    Mr. Russell. Well, I think that that is telling. And I 
appreciate you for being loyal to Veterans Administration, but 
I think we have a greater responsibility as a nation to be 
loyal to our combat veterans and those that have suffered a 
great deal. I have handled the flesh and blood of battle on 
many battlefields to include Iraq and Afghanistan. As a combat 
infantryman, I have dealt with a lot of the issues that we are 
discussing here today.
    As a veterans advocate before entering a career in 
politics, I guess if you call it a career, I have even assisted 
and helped place service dogs with veterans and seen dramatic 
results. You know, whether that is a placebo effect or whether 
it is reality, I can tell you that the results have been 
remarkable.
    But here is what I also know. Opiod abuse is a tragic 
indictment on the Veterans Administration. I would also tell 
you that many veteran suicides, I think, are misdiagnosed. It 
is not unlikely for a soldier maybe to drink a beer, but now he 
is prescribed on OxyContin or Percocet, he diminishes himself 
to a very low state, he doesn't breathe anymore, and then the 
family finds him in the morning, is like, well, gee, Russell 
didn't have any indication that he had any problems. In fact, 
he was talking about going fishing this weekend and now he is 
dead. And they chalk him up as a suicide.
    Here, we have an opportunity to go a great deal of good 
with very low risk, and if the price of that is two dog bites, 
I think we can do that.
    And I also think that the expense of a dog is far cheaper 
than years and years and years of opiod addiction. We are 
legalizing heroin in this country, and we are using our 
veterans as the number one scientific lab of opiod abuse. It 
really angers me.
    And I have been prescribed Percocet and OxyContin, floated 
around for several days, and I will tell you this, I quit cold 
turkey, too, on it because I would rather have a clear head and 
pain than deal with a drug addiction and depression.
    I think we are not being intellectually honest here today. 
And whether Dr. Crowe would like to give his, you know, 
professional opinion if you can't speak to the medical side, or 
yourself, give me one good reason why we should not implement 
this absent the already-given opinion of further study?
    Mr. Fallon. Dr. Crowe, would you like to ----
    Mr. Crowe. Yes, I'd be happy to.
    Mr. DeSantis. If you would stand and just raise your right 
hand. Can you stand?
    [Witness sworn.]
    Mr. DeSantis. Okay. The witness answered in the 
affirmative.
    Mr. Crowe. Thanks. Thank you, Mr. Chairman, the ranking 
member, and the committee.
    Mr. Russell. If you could use your microphone, sir, and 
thank you for being here today.
    Mr. Crowe. I push this? Okay.
    Thank you very much for the question.
    First of all, I think we are mistakenly confusing a couple 
of issues. Opioids are not used to treat PTSD. A lot of folks 
with PTSD also have chronic pain conditions, and they may have 
started opioids to treat the pain, but opioids are not used by 
VA to treat PTSD.
    We also monitor prescribing practices and send in experts 
to facilities where we think there's some mis-practice going on 
in an attempt to correct it.
    We also--as you may know, we have the opiod rescue kits 
that now are being put in the hands of every veteran who's been 
prescribed opioids.
    This is also a very personal issue for me. My sister died 
of an unintended opiod overdose, so I take this very seriously. 
But it's not part of our PTSD discussion.
    Mr. Russell. Well, and I appreciate that, and thank you, 
sir, for your insight. With your indulgence ----
    Mr. DeSantis. Before you do your next question, can you 
just state your full name for the record so we have it?
    Mr. Crowe. Dr. Chris Crowe.
    Mr. DeSantis. Okay. Thank you. And your title?
    Mr. Crowe. Senior mental health consultant and liaison to 
the Defense Centers of Excellence for Psychological Health and 
TBI.
    Mr. Russell. And thank you. And I appreciate your patience 
with being put on the spot, but I understand you did come here 
as well today.
    Look, this is a real issue, and I don't believe anybody 
sitting out here or up here doesn't have concern and care to do 
the right things. But would you also in your professional 
opinion acknowledge that those that deal more than likely with 
PTSD issues are also liable to be suffering from some sort of 
pain due to their service? So these two are associated 
together. Would you agree with that?
    Mr. Crowe. Not necessarily. You know, I think they co-occur 
in many people. Folks who've been deployed, you know, have many 
opportunities for injury and come back with lots of 
musculoskeletal pain. Those also tend to be folks who've been 
exposed to trauma and may develop posttraumatic stress 
disorder. But opioids are never used to treat PTSD.
    Mr. Russell. Well, and I will take you at your word for 
that, but I will also, you know, absolutely put it to you that 
people suffering from PTSD are often drugged in a great deal of 
medications, you know, with a basket-load of issues and 
problems, and being good soldiers or sailors or airmen or 
marines, they take their medications. They follow the doctor's 
orders.
    Well, Mr. Chairman, I have exceeded my time, but I would 
like to say these programs, there is far more evidence that 
they work than they don't, and there is an awful lot of 
evidence that we are not doing a very good job with our 
treatment of PTSD and that we have a lot of veteran suicides, I 
believe personally, just from observation--I only come as a 
combat veteran; I am not a doctor. You know, I have just fought 
for a living. And so what I would tell you is we are not 
meeting those types of issues, and we are trying to drug our 
veterans, send them off to some clinic rather than get them 
engaged in something productive.
    And with your indulgence, thank you, Mr. Chairman. I yield 
back my time.
    Mr. DeSantis. The gentleman's time is expired.
    The chair now recognizes the gentleman from Georgia, Mr. 
Hice, for 5 minutes. And we are going to have Dr. Fallon come 
back and resume his spot on the witness stand.
    Mr. Hice. Thank you very much, Mr. Chairman.
    Dr. Fallon, do you have any idea how the VA is recruiting 
qualified veterans for this study?
    Mr. Fallon. The veteran participants, sir, the folks that 
are actually ----
    Mr. Hice. Correct.
    Mr. Fallon. Yes, sir. They're recruited through each of the 
three medical centers through fliers and presentations to 
mental health clinicians.
    Mr. Hice. Okay. Is there currently a waiting list of 
qualified veterans who would like to participate?
    Mr. Fallon. There is a waiting list at one of our sites, 
the Portland, Oregon, site, because we've had particular 
problems in recruiting qualified dog trainers for that site. 
However, we now have one trainer that has--that is on--is 
working now.
    Mr. Hice. How large is the waiting list?
    Mr. Fallon. I cannot say for sure. I would say it's 
probably in the range of maybe 20 people perhaps.
    Mr. Hice. And this is at one facility or ----
    Mr. Fallon. One facility, yes, sir.
    Mr. Hice. Okay. So are you saying that the personnel at VA 
medical centers are aware of this study and are actively 
engaged in informing veterans of the potential of having a 
service dog?
    Mr. Fallon. Yes, I would definitely say that. It's a very 
popular topic of interest with our veterans.
    Mr. Hice. Does the VA currently have any way to gauge the 
demand for the service dogs?
    Mr. Fallon. We do not, sir. We do not have a method of 
gauging demand for service dogs.
    Mr. Hice. Is that under consideration?
    Mr. Fallon. That would be outside of my purview, sir. I 
couldn't say.
    Mr. Hice. Mr. Diamond, let me come to you. How are 
qualified veterans referred to your organization?
    Mr. Diamond. We've never advertised for a veteran to come 
to our organization. They find us through word-of-mouth through 
the very tight veteran community. But when the veteran applies 
to us, we have a 22-page application. We do interviews, 
criminal background checks. We do a thorough vetting process. 
So by the time the veteran comes to our campus, perhaps a year 
after they applied, we know a bevy about them and are ready to 
bring them into our program.
    Mr. Hice. So you don't do any advertising per se. It is all 
word-of-mouth?
    Mr. Diamond. Absolutely. If we advertised, we would get 
inundated. We are pushing a 2-year waitlist now. There's ----
    Mr. Hice. All right. That is my point. That is where I was 
going. So the VA doesn't seem to have a whole lot of 
information here. Of course, this has not been their program. 
But you are actively involved in providing service dogs to 
veterans, and you have a 2-year waiting list. I mean, do you 
have any way of gauging what the need is?
    Mr. Diamond. I wish we had the good measure, and I--and 
since I'm under oath, I'm not going to venture a guess. But I 
do know this for sure, that the number of veterans that are 
referred to us from the VA because a VA treating physician says 
I don't have anything else that can help you is increasing 
every single day.
    Mr. Hice. Sure. Absolutely.
    Mr. Lyle, let me ask you--and first of all, thank you for 
your service and for your testimony. Both are powerful, and we 
deeply and in a heartfelt way say thank you for what you have 
done for our country.
    How did you find out that service dogs were an option for 
PTS?
    Mr. Lyle. So I actually had a personal friend of mine who 
had a service dog that he also had to acquire on his own and 
train. I'm not quite sure which organization he received his 
dog--well, where he got his dog trained. But I knew that that 
was something that was an option that veterans could utilize. 
And then when I went out to organizations, specifically, I went 
to organizations in Texas because that's where I'm currently 
living. I got pretty much the same result, that wait times were 
at least a year. I didn't feel as though I had that time to 
wait.
    Mr. Hice. Okay. So your introduction came through a 
personal friend?
    Mr. Lyle. That's correct, sir.
    Mr. Hice. Okay. Mr. Diamond, let me come back to you, and 
my time is almost up. Twofold question, do you find that 
veterans struggle with affording service dogs as a general 
rule? And how does your organization enable them to pair up?
    Mr. Diamond. Well, two pieces to that, the first is that 
some of our veterans have reported back to us that they would 
rather make personal sacrifices than to not have--to forego 
having a service dog. But they do struggle. They're on fixed 
incomes, and therefore, they do have difficulty paying for it. 
Most of the veterans that we get could not independently pay to 
get a service dog out on their own.
    So we've made a lot of partnerships with our corporate 
supporters. For example, Bayer Health is--put together a 
network of veterinarians to give free health care for the dogs. 
We're trying to work with pet stores to get free dog food for 
the veterans. We do everything we can on the back end to make 
it free or almost free for the veteran.
    But the overwhelming message from them is they would forgo 
their own personal comfort to make sure that they have a 
service dog.
    Mr. Hice. Very good. Thank you, Mr. Chairman.
    Mr. DeSantis. I thank the gentleman.
    Mr. Lyle, what was your experience with the drugs? How did 
you get prescribed by the VA?
    Mr. Lyle. Well, again, Mr. Chairman, when I took the post-
deployment health assessment, which was the preliminary--what 
they give you--I'm not sure the timeline but there is a 
timeline that they're--the VA is required to give that once you 
return stateside. I then went to a VA facility in Fort Worth 
and tried to use their system. I eventually met with a 
psychologist at the VA hospital in Fort Worth and was 
prescribed the sleep aids and the antidepressants.
    Mr. DeSantis. Why did they do that? Was it because of your 
symptoms?
    Mr. Lyle. Correct. So I--when I returned, I was suffering 
from recurring nightmares and I would have acute anxiety 
attacks. I also just had difficulty with close interpersonal 
relationships. As I had mentioned previously, one of the side 
effects that goes largely unnoticed as a result of 
posttraumatic stress, there's a high divorce rate amongst 
military members, but that also had affected me. I--it wasn't 
the direct cause of the divorce, but it definitely did not help 
in any way, shape, or form. So it was affecting my personal 
relationships.
    The nightmares specifically, Kaya is trained to recognize 
when I'm having a nightmare, and she will jump up in bed and 
lick my face to wake me up, so that's one of the ways that she 
has assisted me in my symptoms.
    And I would further note that a dog can give you a sense of 
purpose that a pill will just not ever do in the sense that 
there were many days I didn't want to get out of bed. I didn't 
have really anything to do like--as I said, I didn't have a job 
at the time, wasn't currently enrolled in school, and I didn't 
have any reason to. But a service dog needs to be taken 
outside, they need to be fed, they give you a reason to get up 
and to be productive on a day-to-day basis and give you that 
small sense of purpose again that you can grow on. And again, I 
reiterate that that's something that pills just did not do for 
me.
    Mr. DeSantis. Because we had testimony before that this is 
not something the VA is doing, providing drugs, I mean, I guess 
do you disagree with what was said in your case?
    Mr. Lyle. Could you repeat the question, Mr. Chairman?
    Mr. DeSantis. The previous witness to Mr. Fallon when we 
did the musical chairs said that that is not something--drugs 
for PTS are not something the VA does, but in your instance is 
that what they did or ----
    Mr. Lyle. Well, my issues as a result of posttraumatic 
stress, as I said, we recurring nightmares, and I got a sleep 
aid as a result of those nightmares so I would disagree with 
that.
    Mr. DeSantis. Okay. And, Mr. Diamond, what--I mean, the 
bill that we have, if you are down to $22,000, that is even 
more than what we are doing, so that is good. So you are 
confident that you will be able to continue to reduce the costs 
of each dog?
    Mr. Diamond. Yes. I would hate for our donors to hear that, 
but yes, we have hit economies of scale sufficiently that our 
efficiencies are in the low $20s for next year.
    Mr. DeSantis. Okay. Good. Mr. Feldman, I mean, I guess, 
what is your recommendation for making the case--you are 
familiar with the research that is going on. What more in 
Congress do we need to be finding and presenting or do you 
think that there is enough facts already in existence to 
justify moving forward?
    Mr. Feldman. Well, we're continuing to do research and 
we'll come back and share the published research that we gave 
you a preview of today. A pilot program, as you've written into 
this bill, is a really good way to go because you've built in 
some evaluation, you've built in a report on that program as 
part of the legislation. So it's a chance to continue studying 
but also to help a lot of folks, so that's why we support it.
    Mr. DeSantis. Great. Well, look, at the end of the day 
there has been a lot of anecdotal evidence. There is some 
evidence coming out in some of the literature. But here is the 
thing. I could understand why that would be a cautionary tale 
if there was somehow a negative side effect to this, but there 
is not. So the worst-case scenario that we are talking about is 
we have made some veterans happy with service dogs as 
companions. That is like the worst-case scenario. And 
obviously, if there is a positive effect, you are actually 
giving veterans a sense of purpose, and I believe saving lives.
    And I will just tell you, since we have been involved in 
this issue, I have had multiple veterans come up to me and tell 
me that they would have probably committed suicide but for 
being paired with a service dog. And so it is not often people 
look you in the eye and tell you that they probably would have 
done that, and so it really, really registers when you hear 
that.
    Mr. Lyle?
    Mr. Lyle. And, Mr. Chairman, I would also note that just 
being a veteran, any veteran will probably tell you that they 
have--any veteran of Iraq or Afghanistan will probably tell you 
that they either have a friend or a friend of a friend that has 
committed suicide and has been affected by this suicide 
epidemic.
    This study that was done by the VA I will also note back in 
2013 that indicated the 22-veteran-a-day average committing 
suicide, that study was based on 21 States. So the number 
tragically is higher than 22 veterans a day. That was just a 
side note.
    But I will also say since I've been doing this and, you 
know, I have been talking to Members of Congress, friends of 
mine specifically in Texas, because the cost barriers are so 
high to getting your own service dog--and many veterans join 
the military to get that family, that sense of community. When 
they get out, they don't have it anymore. They don't have the--
you know, the family support that I had to financially support 
their endeavor. And then they get told that there are wait 
times over a year and they don't feel like they have that time 
so they go out and they just get a dog.
    And I will note, as I believe it was Mr. Russell who had--
Congressman Russell, who had said earlier that just being 
around a dog--Dr. Fallon, as a veterinarian, has said that he's 
made personal connections with the animals that he's been 
around, I would argue that if you don't think or believe that a 
dog can be therapeutic and a service dog specifically can treat 
certain symptoms specific to their posttraumatic stress, then 
you probably have never owned or been around a dog.
    Mr. DeSantis. I appreciate that.
    Did you want to go real quick?
    Mr. Lynch. Sure.
    Mr. DeSantis. I was going to recognize Mr. Hurd, but if you 
are going to go, I will just recognize you.
    Mr. Lynch. Sure.
    Mr. DeSantis. All right. I am going to recognize the 
gentleman from Massachusetts.
    Mr. Lynch. Okay. Thank you, Mr. Chairman.
    The way this is structured under the chairman's bill, the 
key relationship will be the VA and the contractor, if it is 
Mr. Diamond and K9s for Warriors or any other group. The 2016 
VA report said that there was a problem with the VA not getting 
out to the contractor location where the training was going on 
or to the home of the veteran with the dog, and that broke 
down. Are we able to cure that defect in further studies, in 
the existing study ----
    Mr. Fallon. Yes ----
    Mr. Lynch.--in ----
    Mr. Fallon.--Ranking Member ----
    Mr. Lynch.--the pilot program?
    Mr. Fallon. Yes, absolutely. The problem was that we were 
relying on the service dog organization's trainers to interact 
with our veterans, and that resulted in us not getting timely 
information about problems that had developed with the dog 
pairs, which is why we now have hired our own dog trainers.
    Mr. Lynch. Okay. Thank you.
    Mr. DeSantis. The chair now recognizes the gentleman from 
Texas, Mr. Hurd, for 5 minutes.
    And the votes have started, but we have got 13 minutes, and 
so Mr. Hurd, and then if there are other questions, we may have 
time for other members, too.
    You are recognized.
    Mr. Hurd. Thank you, Chairman.
    And I would like to thank the distinguished gentleman from 
Florida for having this panel, and I would like to thank Mr. 
Lyle for being here. He is from my alma mater, Texas A&M 
University.
    Mr. Lyle. Gig 'em.
    Mr. Hurd. Gig 'em Aggies--which has a long history of 
working with animals to improve the lives of humans, everything 
from Texas Task Force 1, which is one of the most active urban 
search-and-rescue teams. You have a student organization called 
Aggie Guide Dogs and Service Dogs, which promotes the use of 
service dogs. And we are also part of the TexVet Network, which 
includes the Operation K9.
    And, Mr. Lyle, first, I want to thank you for your service 
and dedication to the safety of Americans. As a former officer 
in the CIA, I had the honor of serving alongside members of the 
military. I am familiar with the sacrifices that you and your 
family make. And I know this is a life-changing experience and 
has inspired you to give back to your community, and I 
appreciate you for doing this.
    My first questions, though, are actually to Mr. Fallon. Has 
the VA reached out to any other organizations conducting 
similar studies?
    Mr. Fallon. After the difficulties we had with the pilot 
study, we did site visits of ----
    Mr. Hurd. The pilot study from 2006?
    Mr. Fallon. The pilot study you started in 2011, sir ----
    Mr. Hurd. Okay.
    Mr. Fallon.--and was suspended finally in 2012. We realized 
we had to change our study protocol. We actually visited major 
organizations like Canine Companions for Independence in 
California ----
    Mr. Hurd. So my question is actually--let's start before 
that. Why did the VA decide to reinvent the wheel rather than 
relying on some, you know, other organizations that have a 
history in doing this kind of thing?
    Mr. Fallon. Well, for the pilot, sir, we relied up on the 
organizations themselves, all of which professed to be very 
experienced and to be able to produce high-quality dogs. And 
unfortunately, that did not turn out to be true.
    Mr. Hurd. I don't even know where to go. There are so many 
questions. Why not reach out to DOD and leverage some of the 
experience that they have? They have some world-class trainers 
and they have world-class activities using dogs for all kinds 
of services.
    Mr. Fallon. Admittedly, we were not familiar enough with 
the service dog community when we embarked on the pilot study. 
There's no question that we've made mistakes.
    Mr. Hurd. Say that again. Say that first part.
    Mr. Fallon. We were not adequately familiar with the 
service dog community and the pitfalls in that community when 
we embarked on our pilot study. There's no question about that.
    Mr. Hurd. So how much money did the VA spend in phase 1 to 
develop veterinary standards, which I have been told are not 
longer in use?
    Mr. Fallon. I am not sure the exact figure. It would be 
somewhere above $1 million, though, in the pilot study.
    Mr. Hurd. Above $1 million or above $10 million?
    Mr. Fallon. No, $1 million, sir. The $12 million figure is 
for the entire phase 1 and phase 2 together.
    Mr. Hurd. And could that money have been saved if the VA 
had initially adopted DOD's veterinary standards?
    Mr. Fallon. No, sir, it wasn't just the veterinary 
standards. It was--there were training standards involved and 
also follow-up by the organization's dog trainers. All those 
things ended up to be a major problem.
    Mr. Hurd. Now, you are in the chief veterinary medical 
offices, correct?
    Mr. Fallon. Yes, sir.
    Mr. Hurd. What proposals have you suggested up the chain on 
how to make sure we incorporate this into the VA?
    Mr. Fallon. Into the study, sir, or into VA in a wider ----
    Mr. Hurd. Into the VA so that more veterans could get 
access to this type of care?
    Mr. Fallon. Well, we were directed by Congress to do this 
study, sir, and that has been my focus is to do this research 
study. There are other portions of the VA that have ----
    Mr. Hurd. What is the best next action?
    Mr. Fallon. To complete this study successfully.
    Mr. Hurd. And what is the best next action there? What is 
the next step that you need to take in order to make sure this 
gets completed?
    Mr. Fallon. Well, we are doing them now, sir. I mean, we 
have retooled and learned from our mistakes ----
    Mr. Hurd. When is it going to be done?
    Mr. Fallon. Pardon me?
    Mr. Hurd. When is it going to be done?
    Mr. Fallon. We expect the data collection to be complete by 
late 2018, and then the paper would be published thereafter.
    Mr. Hurd. Mr. Lyle, I have a little bit less than a minute, 
but you can go over a little bit if you so need. Hopefully, the 
chairman indulges my prerogative, anything that has not been 
discussed during this hearing today that you think is important 
to get out there?
    Mr. Lyle. Well, thank you, Congressman Hurd.
    I think it's important to understand and to reiterate what 
I said, that a service dog not only will combat specific 
symptoms like Kaya does for me in waking me up from nightmares, 
et cetera, et cetera, but there is an effect that they give to 
you of providing a sense of purpose. And when veterans get out, 
they lose their military community, they lose their chain of 
command, they get their mission, their purpose ripped away from 
them very, very quickly.
    And there's--nonprofits have done admirable work in trying 
to assist veterans transitioning, but they're still struggling. 
And I think the main reason is that they lose their sense of 
purpose and they lose their mission. They don't have anything 
driving them anymore. And I think a service dog also provides 
that.
    I will just further note very quickly that I've spent the 
last year doing this, trying to raise awareness about the 
issue, talk to Members of Congress, have been received very 
well, and it's taken me a year to do this, funding all of this 
myself. We don't have until late 2018 to have this study 
completed and then understand the results and then try to have 
a program initiated at that point. Twenty-two veterans a day 
are committing suicide.
    Anybody that is okay with that number--I wouldn't say that 
anybody at the VA is okay with that number, but we have 
something that we know works. We have evidence that works now. 
And with 22 veterans a day committing suicide, I return to what 
I said in my opening statement. That is unconscionable that we 
don't explore alternative methods of treatment.
    Mr. Hurd. Mr. Lyle, thank you.
    Mr. Damon ----
    Mr. Diamond. Thank you.
    Mr. Hurd. Mr. Diamond, excuse me, thank you for your 
service.
    Mr. Chairman, I yield back the time I do not have.
    Mr. DeSantis. The gentleman's time is expired.
    I would like to thank all of our witnesses for taking the 
time to appear before us today.
    If there is no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 3:20 p.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
               


                                 <all>
</pre></body></html>
